         OFCCP’s METHOD OF
      SELECTING CONSTRUCTION
           CONTRACTORS
      FOR COMPLIANCE REVIEWS




EMPLOYMENT STANDARDS ADMINISTRATION




                   REPORT NO.: 2E-04-410-0002
                   DATE ISSUED: March 6, 2002
                          TABLE OF CONTENTS




ACRONYMS AND GLOSSARY……………………………………………………………..i

EXECUTIVE SUMMARY…………………………………………………………………..iv

BACKGROUND………………………………………………………………………………1

PURPOSE, SCOPE, AND METHODOLOGY……………………………………………...3

FINDINGS AND RECOMMENDATIONS…………………………………………………5

   Finding A:   OFCCP Needs to Clarify the Sources from Which
                Construction Contractors Will Be Selected for
                Compliance Reviews………………………………………………………5

   Finding B:   OFCCP Needs to Establish and Apply Neutral
                Selection Criteria…………………………………………………………12

   Finding C:   Regional and District Offices Need to Consistently
                Document Their Rationale for Selection Decisions……………………...14

OFCCP RESPONSE AND OIG CONCLUSIONS ........……………………………….….15


APPENDICES


   Appendix A         Steps for Selection of Construction Contractors
                      for Review Based on 1990 Directive……….………………….…18

   Appendix B         Typical OFCCP Scheduling Process……….…..……….…….….19

   Appendix C         Agency Response……………………..…….………………...….20




                                     i
                            ACRONYMS AND GLOSSARY




                                       ACRONYMS
AAP          Affirmative Action Plan
CIS          Construction Information System
CRA          Construction Resource Analysis
DOL          United States Department of Labor
EEO          Equal Employment Opportunity
ESA          Employment Standards Administration
GSA          General Services Administration

OASAM        Office of the Assistant Secretary for Administration and Management

OFCCP        Office of Federal Contract Compliance Programs
OIG          Office of Inspector General
OSHA         Occupational Safety and Health Administration
VETS         Veterans’ Employment and Training Service
WHD          Wage and Hour Division



                                       GLOSSARY

Affirmative Action                 Actions, policies, and procedures to which a contractor
                                   commits that are designed to achieve equal
                                   employment opportunity. The affirmative action
                                   obligation entails: (1) thorough, systematic efforts to
                                   prevent discrimination from occurring or to detect it
                                   and eliminate it as promptly as possible, and
                                   (2) recruitment and outreach measures.




                                              ii
Contracting Agency           Any department, agency, establishment or instrumentality
                             of the United States (under the Executive Order, limited to
                             the executive branch of the Government), including any
                             wholly owned Government Corporation, which enters into
                             contracts with the federal Government.


Federally Assisted Project   Any agreement or modification thereof between any
                             Construction Contract applicant and a person for
                             construction work which is paid for in whole or in part with
                             funds obtained from the Government or on credit of the
                             Government pursuant to any Federal program involving a
                             grant, contract, loan, insurance, or guarantee, or undertaken
                             pursuant under which the applicant itself participates in the
                             construction work.




                                       iii
                                   EXECUTIVE SUMMARY

The Office of Federal Contract Compliance Programs (OFCCP) is a component of the U.S.
Department of Labor (DOL), Employment Standards Administration. OFCCP has the
responsibility for ensuring that employers doing business with the Federal Government comply
with the equal employment opportunity (EEO) and affirmative action provisions of their
contracts. Federal contractors, subcontractors, and federally assisted contractors are required to
take affirmative action to ensure that all individuals have an equal opportunity for employment,
without regard to race, color, religion, sex, national origin, disability or status as a Vietnam era
or special disabled veteran.

OFCCP’s jurisdiction covers approximately 26 million employees, or nearly 22% of the total
civilian workforce. OFCCP’s covered Federal contractors include an estimated 100,000
construction contractor establishments.

The purpose of this evaluation was to assess OFCCP’s methods for selecting construction
contractors for compliance reviews. Because of the large size of the contractor universe, and the
relatively small size of the OFCCP compliance workforce, it is both prudent and practical for
OFCCP to have an efficient and effective method for selecting contractors for compliance
evaluations.

 RESULTS OF EVALUATION

We identified several steps that OFCCP can take to improve their method of selecting
construction contractors by: (a) identifying sources the Regional and District Offices should use
to secure current federal and federally assisted construction data, (b) developing and publishing
neutral selection criteria, and (c) documenting the entire selection process.


FINDING A - OFCCP Needs to Clarify the Sources from Which Construction Contractors
            Will Be Selected for Compliance Reviews

We found that the selection process outlined in OFCCP’s 1990 directive -“Construction
Contractor Selection System”- is not being followed. Instead, OFCCP’s Regional and District
Offices inconsistently use a variety of sources to identify construction contractors for compliance
reviews; accurate and current database information on federal construction contractors is difficult
to identify; and no substantive policy guidance on selecting construction contractors for review
has been issued since the 1990 directive.




                                                 iv
FINDING B - OFCCP Needs to Establish and Apply Neutral Selection Criteria

In addition to identifying the sources to be used for selecting construction contractors, OFCCP
needs to develop a uniform application of selection criteria. We found the selection criteria
provided in the 1990 directive on the “Construction Contractor Selection System” are not
uniformly applied.

While many District Offices appropriately consider the date of a contractor’s prior review and
the dollar value of a contract as their primary selection criteria, many others do not. Further,
some District Offices do not schedule companies with less than 15 employees while other offices
use a minimum of 25 employees as one of their selection criterion. Finally, while OFCCP can
schedule a construction contractor for a compliance review if it has a contract of $10,000 or
greater, we identified that $25,000 is being used as one criterion for the selection of a contractor
for compliance reviews.


FINDING C BRegional and District Offices Need to Consistently Document the
           Rationale for Selection Decisions

We found that most District Offices maintain records on contractors selected for compliance
reviews, but do not maintain information on those contractors who were considered but not
selected for a compliance review.

The Solicitor’s office noted that incomplete historical information addressing the selection
system is a problem often encountered during litigation involving issues related to selection
systems.

The 1990 directive on construction scheduling, states that District and Regional Offices must
include the reasons for each compliance review selection in each case file. The District Offices’
lack of documentation showing they applied neutral criteria could result in legal challenges from
the contractor community. We believe it is important that OFCCP document each step of its
selection system, and maintain such documentation for review.


 RECOMMENDATIONS

We recommend that OFCCP take the following actions to improve the efficiency and
effectiveness of their method for selecting construction contractors for compliance reviews:

   1.      Develop and disseminate guidance to District and Regional offices regarding the use
           of sources for selecting construction contractors for review.

               (a) Determine what database(s) can provide OFCCP with the most accurate and
                   timely information needed for contractor selection.




                                                 v
           (b) Develop a database system where contractors can report into the agency on
               actual subcontractors being used on the construction contracts.

           (c) Inform executive branch department and agencies of their need to comply
               with the affirmative action requirement of 48 CFR Chapter 1, Part 22.804-
               2(c). OFCCP should develop a reporting mechanism for contracting agencies,
               notify them in writing of the requirement, and where possible, meet with
               representatives of the Federal contracting agencies to stress the need for
               timely reporting. OFCCP should also determine if there is a need to enter into
               a Memorandum of Understanding with agencies in order to obtain the
               required information.

           (d) Request that contracting agencies include a notification to prime contractors
               regarding their affirmative action requirement of 41 CFR Chapter 60-4.2(d)3
               when they award a contract, with a copy sent to OFCCP. The requirement
               states that Contractors shall provide written notification to OFCCP within 10
               working days of award of any construction subcontract in excess of $10,000
               at any tier for construction.

           (e) Use its official directive system to promulgate the sources for construction
               compliance reviews. This will guarantee easy access to the information for
               operational purposes and ensure a written record of the sources to be used in
               selecting contractors.

2. Determine and specify in writing what neutral criteria will be applied at each step of the
   selection process. If there is Region-specific, or District-specific neutral criteria to be
   applied, it should also be specified in writing and maintained for review should the need
   arise. OFCCP should use its official directive system to clarify the neutral criteria to field
   personnel.

3. Document the rationale for compliance review selection decisions and provide direction
   to field personnel in the directive on the selection procedures. Consider development of
   an electronic system for field personnel to utilize when reporting on contractor
   selection/non-selection.

           (a) Create a “Construction Contractor Scheduling Documentation Form.” The
               form should be completed for all scheduled construction reviews and
               included in the case file. This will create an institutional record of the
               decision should questions arise concerning selection and scheduling
               procedures. At a minimum, the form should include: OFCCP identification
               information, contractor identification information, and reason(s) the
               contractor was scheduled for review.

           (b) Create a “Construction Contractor Non-Scheduling Documentation Form.”
               This form should be completed for all construction contractors that were
               considered but not scheduled for a compliance review. The form should be
               maintained in duplicate form in: (a) the case file of the selected contractor;


                                             vi
                   and (b) a general District Office file either in hard copy or electronic format.
                   At a minimum, the form should include: OFCCP identification information,
                   contractor identification information, and reason(s) the contractor was not
                   scheduled for review.


 OFCCP RESPONSE AND OIG CONCLUSIONS

OFCCP “generally concurs with OIG’s main recommendations,” and acknowledges there are
problems in each of the findings identified by OIG, “especially with respect to OFCCP’s
selection criteria.” The agency requested that OIG more fully articulate the practical difficulties
associated with OFCCP’s role in ensuring that contracting officers and federal contractors
comply with existing reporting mandates, particularly at the State level. We have incorporated
this information in the report.

Based on OFCCP’s response, we consider all recommendations resolved. The recommendations
will be closed pending OIG’s receipt of appropriate documentation specified in the report.

The agency’s complete response is found in Appendix C.




                                                vii
                                          BACKGROUND


The Office of Federal Contract Compliance Programs (OFCCP) is component of the U.S.
Department of Labor, Employment Standards Administration. It has a national network of six
Regional Offices, and 54 District and Area Offices in major metropolitan centers.

OFCCP has the responsibility for ensuring that employers doing business with the Federal
Government comply with the equal employment opportunity (EEO) and affirmative action
provisions of their contracts. OFCCP administers and enforces three EEO programs: Executive
Order 11246; Section 503 of the Rehabilitation Act of 1973; and the affirmative action provisions
of the Vietnam Era Veterans’ Readjustment Assistance Act of 1974. OFCCP also shares
enforcement authority for the regulations requiring EEO and affirmative action in apprenticeship
programs; Title I of the American with Disabilities Act; the Immigration Reform and Control Act;
and, the Family and Medical Leave Act. Together, these laws ban discrimination and require
Federal contractors, subcontractors, and federally assisted contractors to take affirmative action to
ensure that all individuals have an equal opportunity for employment, without regard to race, color,
religion, sex, national origin, disability or status as a Vietnam era or special disabled veteran.

OFCCP’s jurisdiction covers approximately 26 million employees or nearly 22% of the
total civilian workforce. OFCCP’s covered Federal contractors include an estimated 100,000
construction contractor establishments.

Based on the large number of federal construction contractors, and the relatively small size of
OFCCP’s enforcement workforce, (Fiscal Year 2001 data shows 444 Compliance Officers), the
Agency’s annual program plan projects a relatively small number of construction contractors for
evaluation within the overall contractor population at any given time (reference Figure 1 below).
These figures show that less than 1.4% of construction contractors under OFCCP’s jurisdiction
undergo compliance evaluations annually.

          Evaluations Completed versus Compliance Workforce
                                      1999        2000                     2001
 Total Evaluations Completed         3,833        4,162                    6,979
 Service & Supply                    2,588        2,795                    5,529
 Construction                        1,245        1,367                    1,562

  Compliance Officers                        387            453             444
Figure 1.

Because of the large size of the contractor universe, and the relatively small size of the OFCCP
compliance workforce, it is both prudent and practical for OFCCP to have an efficient and
effective method to select contractors for compliance evaluations.




                                                   1
Covered Contractors

 Each of the laws administered by OFCCP has its own set of nondiscrimination and affirmative
 action obligations and requirements for employers with covered contracts and subcontracts as
 shown below.

                                 Contractors Covered By Laws

      Employment               Federal Contracts &            Federally Assisted
        Laws                      Subcontracts                   Construction
                                                           Contracts & Subcontracts
  E.O. 11246                       > $10,000                      > $10,000
  Section 503                     > $ 10,000                          --
  38 U.S.C. 4212                $10,000 or more                       --
 Figure 2.

 Because of the fluid and often-temporary nature of construction work, and the differing lengths
 of duration of the federal contracts associated with construction work, OFCCP has established a
 distinct approach to affirmative action for the construction industry. For example, Executive
 Order 11246 does not require covered construction contractors to develop written Affirmative
 Action Plans. Instead, the construction regulations enumerate the good faith steps these covered
 contractors must take in order to demonstrate affirmative actions taken in order to increase
 minorities and women in the skilled trades.




                                                2
                       PURPOSE, SCOPE, AND METHODOLOGY

PURPOSE

The purpose of this evaluation was to assess OFCCP’s methods for selecting construction
contractors for compliance reviews. Specifically, we addressed the following questions:

   (1) Has OFCCP developed, implemented, and monitored policies and procedures for
       selecting construction contractors for compliance review?
   (2) If there is a selection process, is it uniformly applied throughout the agency?
   (3) What are the methods currently utilized by OFCCP District Offices for
       selecting construction contractors for a compliance review?
   (4) What recommendations, if any, can be made to help OFCCP develop a more systematic
       and neutral approach for selecting contractors for review?

This evaluation supports DOL’s Strategic Goal 3, Quality Workplaces-Foster workplaces that are
safe, healthy, and fair, and ESA’s Strategic Goal 1, Create better workplaces by increasing
employer and employee awareness of, commitment to, and involvement in assuring fair wages
and equal opportunity, minimizing the impact of work related injuries, and safeguarding union
democracy.

SCOPE

This evaluation focused on OFCCP’s methods for selecting federal construction contractors for
compliance reviews for FYs 1999 through 2001. OFCCP conducted a total of 4,174 construction
reviews during this period.

METHODOLOGY

Our methodology included qualitative methods and document reviews.

       Qualitative Methods

       Qualitative methods included numerous interviews/discussions with:

       (1) OFCCP’s National Office staff.
       (2) Telephone interviews with OFCCP’s six Regional Directors and
           16 District/Area Directors.




                                              3
       (3) Other DOL agencies: ESA’s Wage and Hour Division (WHD), Veterans’
           Employment and Training Services (VETS), and the Occupational Safety and Health
           Administration (OSHA).
       (4) OSHA’s Office of Financial Management in reference to contracts related to data
           collection methods of other agencies.
       (5) The Department’s Information Clearance Office.
       (6) The University of Tennessee-Knoxville’s, Construction Resource Analysis group.

Document Review

We reviewed numerous documents related to methods of identifying and selecting contractors
for compliance reviews, including:

       (1)    OFCCP’s Federal Contract Compliance Manual.
       (2)    National and Regional Offices documents pertaining to policy, procedures and
              guidelines.
       (3)    DOL Federal Register Notices.
       (4)    Contracts relating to data collection and construction targeting of contractors.
       (5)    Documentation in reference to the composition of the F.W. Dodge Report.
       (6)    OFCCP’s website containing information dedicated to EEO and affirmative
              action guidelines.
       (7)    Other agencies (internal and external) to OFCCP selection procedures.

We relied heavily on information obtained through extensive interviews, and did not conduct
additional support review of district case files.

We conducted our review in accordance with the Quality Standards for Inspections, published by
the President’s Council on Integrity and Efficiency.




                                               4
                               FINDINGS AND RECOMMENDATIONS

FINDING A—OFCCP Needs to Clarify the Sources from Which Construction Contractors
          Will Be Selected for Compliance Reviews

We found that the selection process outlined in OFCCP’s 1990 directive—“Construction
Contractor Selection System”—is not being followed. Instead, OFCCP’s Regional and District
Offices inconsistently use a variety of sources to identify construction contractors for compliance
reviews; accurate and current database information on federal construction contractors is difficult
to identify; and no substantive policy guidance on selecting construction contractors for review
has been issued since the 1990 directive.

OFCCP should clarify for their Regional and District Offices what sources (e.g., database
information, contract award notices, visual identification, etc.) should be used for securing
current federal and federally assisted construction data. In conjunction with this identification of
sources to be used, the agency should also: (a) develop and publish neutral selection criteria, and
(b) document the entire selection process. These two items are identified in separate findings.

OFCCP Is Not Following Its Own 1990 Directive for Selecting Construction Contractors
for Compliance Reviews

OFCCP’s headquarters issued a directive to its Regional Offices in May 1990 regarding a
selection system for construction contractors. This directive updated and replaced an Order
issued in 1987 that similarly addressed policies and procedures for conducting construction
reviews (ADM87-1/SEL, formerly OFCCP Order No. 670a4, March 17, 1987). While it
reflected changes in terminology and nomenclature since the 1987 Order, the 1990 directive
effected no substantive changes in policy and procedures. The selection steps outlined in the
1990 directive are found in Appendix A.

OFCCP uses their directive system to provide guidance to the field on operating procedures and
to ensure consistent application of policies within the agency. We learned through interviews
that District Offices are not following the steps detailed in the 1990 directive for a variety of
reasons, including: (1) the F. W. Dodge Report (Dodge)1 frequently does not list any federally
funded projects in their district, and it has limited workforce information; (2) several District
Offices use mega-projects2 as a resource for scheduling individual reviews, but these projects are
not addressed in the 1990 directive (a January 11, 1995 directive was issued on the subject of
Mega Project Reporting, but it did not provide guidance regarding selection); (3) District

1
  Dodge advertises that it has been the single largest source of advance information on current and pending
construction jobs. Each month the District Offices receive from CRA a list of publicly owned projects currently
under construction within their jurisdiction. The list consists of new contracts awarded during the month and active
projects carried over from the previous month.
2
  Mega-projects are defined as federally funded or federally assisted construction projects that meet the following
criteria: (a) significant economic impact on community; (b) duration of two years or more; and (c) significant
employment opportunities throughout the duration of the project.


                                                          5
Directors have difficulty obtaining information on an employers’ use of minorities and women in
their scheduling process because they no longer have access to demographic data from the
Monthly Employment Utilization Reports (CC-257s)3; and (4) the agency has not thoroughly
examined how selecting officials can make selection decisions more consistently.

District Offices Inconsistently Use a Wide Variety of Resources for Identifying Contractors
for a Compliance Review

We learned through interviews, and confirmed through a review of support documentation, that
District Offices use multiple sources to identify construction contractors for compliance reviews,
but they are not used consistently. These sources range from a review of monthly hardcopy
reports of contractor awards to information received from unions and local community groups.
(Reference Appendix B for the typical workflow and the variety of sources the districts consider
in their selection process.)

OFCCP does not have a centralized database that provides construction award and workforce
data from one recognized source, nor do they have a complete universe of construction
contractors to draw from for compliance reviews. Agency representatives stated, and we agree,
that it is difficult to obtain such information from a single source, especially one that includes
information on federally assisted projects. Over time, OFCCP has turned to other readily
available sources of information, such as the Dodge Report, from which to select contractors for
reviews.

Following are the most frequently used sources for construction award data utilized by OFCCP.

        (a) F. W. Dodge Report

        The 1990 directive states that potential candidates for compliance reviews should be
        generated principally from a monthly printout entitled “Active Projects”, provided by the
        Construction Resource Analysis (CRA) group at the University of Tennessee. CRA
        obtains its data for the monthly report from Dodge, which is a business unit of the
        McGraw-Hill Construction Information Group. OFCCP’s National Office purchases
        monthly listings from CRA of active construction contract projects within each District’s
        jurisdiction. Many District Offices use the Dodge Reports (hardcopy and/or electronic
        via the Intranet) as a source, but not the sole source for selecting contractors.

        We found several limitations with the Dodge Report used by OFCCP, including:

             1. The Dodge Report is essentially comprised of data on prime contractors. If
                subcontractors are included on the Dodge Report, the information may not be
3
  The CC-257 was used through 1997 to document and report the employment hours of women and minority in the
construction trades. The form was required for construction work performed in geographic areas where a contractor
held a Federal or federally assisted construction contract and where minority goals had been established prior to
October 3, 1980. Construction contractors and subcontractors in those areas submitted their CC-257s directly to the
OFCCP District Office with jurisdiction over the location where payroll records were kept. OFCCP recommended
the monthly utilization report be eliminated in 1995 as part of the National Performance, Paperwork Reduction Act.
We note that the electronic version of OFCCP’s manual still contains the CC-257 requirement in section 4C02.


                                                         6
       current or complete. The subcontractor information provided from the Dodge
       Report may be on those subcontractors who placed a bid for the contract rather
       the subcontractors who were awarded the contract.

   2. The Dodge Report contains all publicly funded active construction projects, many
      of which do not involve federal funds.

   3. Both the hard copy and the Intranet version of the report have similar data, but the
      Intranet version sometimes has general contractor and owner information
      included on it. When it is not included, Compliance Officers have to obtain
      owner and general contractor data from CRA.

   4. Information on duration of the contracts is sometimes inaccurate because
      construction work is very fluid.

   5. The Intranet version of the document is cumbersome. The document has
      anywhere from 700 to 1300 records listed monthly, sorted alphabetically by
      States. The report requires the District Offices to sort through the report to obtain
      those states in their jurisdiction. This is a time-consuming process.

(b) Award Notices from Contracting Agencies

Regulatory requirement in 48 CFR Chapter 1, Part 22.804-2 (c) states that:

“Contracting officers shall give written notice to OFCCP regional offices within 10
working days of award of a construction contract subject to these affirmative action
requirements. The notification should include the name, address, and telephone number
of the contractor; employer identification number; dollar amount of the contract;
estimated start and completion dates of the contract; the contract number; and
geographical area in which the contract is to be performed.”

We identified there is no reporting mechanism in place to ensure that contracting agencies
provide OFCCP with this information, and many contracting agencies are not complying with
the requirement. However, OFCCP representatives stress that while OFCCP has the authority to
promulgate regulations purporting to govern the actions of contracting officers of other executive
agencies, such action requires consultation and cooperation between the agencies. OFCCP
issued a memorandum dated April 29, 1980 pertaining to Notification of Federally-Assisted
Construction Contracts and Award Notifications, signed by the Secretary of Labor. It was
addressed to heads of executive branch departments and agencies and requested their cooperation
in identifying those “grant, contract, loan, insurance or guarantee programs administered by
your agency which result or could result in whole or in part in construction contracts or
subcontracts, regardless of the states purpose of the program.” It also requested that procedures
be identified for notification of contract information to regional OFCCP offices. We learned
through our interviews that these procedures have not been followed for several years, and
alternative procedures or reminders have not been sent to executive branch departments and
agencies.



                                        7
Several OFCCP Officials stated it would be beneficial for OFCCP to enhance communications
with Federal contracting agencies in their jurisdiction (e.g., Housing and Urban Development,
the Department of Transportation and the Department of Defense, particularly the Army Corps
of Engineers). They stated that this fostering of relationships would help to facilitate the
required notifications of pre-award information to OFCCP.

(c) Notices of Subcontractor Awards

OFCCP needs to obtain better information on subcontractors. The District Offices derive much
of their subcontractor data from notices provided by the prime contractors. While many OFCCP
officials indicated the subcontractor notices were a good selection source, they also stated the
process of obtaining the information could be improved. Section 41 CFR 60-4.2(d) requires that

“The Contractor shall provide written notification to the Director of OFCCP within 10
working days of award of any construction subcontract in excess of $10,000 at any tier
for construction work under contract resulting from the solicitation. The notification
shall list the name, address and telephone number of the subcontractor; employer
identification number of each subcontractor, estimated dollar amount of the subcontract,
its estimated starting and completion dates, and geographic area (Standard Metropolitan
Statistical Area or Economic Area) in which the work is to be performed.”

Again, there is no mechanism in place to ensure all prime contractors notify OFCCP
when they award subcontracts.

(d) Mega Construction Projects

Mega construction projects are not addressed in the 1990 directive, but many District Offices use
contractor information from these projects as a primary source for scheduling individual
contractors for review.

Frequently one mega-project results in a number of individual compliance reviews of
different contractors. OFCCP maintains an inventory of at least 30 active mega-projects.
In fiscal year 2001, OFCCP is projected to conduct 120 mega-project evaluations from an
inventory of at least 30 active mega-projects.

      30

      25                                                     Region I/II   -New York & Boston
      20                                                     Region III    -Philadelphia
                                             Mega-Projects   Region IV     -Atlanta
      15
                                             Reviews Proj    Region V      -Chicago
      10                                                     Region VI     -Dallas
       5                                                     Region IX/X   -San Francisco/Seattle
       0
           I/II   III   IV   V   VI   IX/X



Figure 3. FY 2001 Mega-Projects, and Reviews Generated from the Projects



                                                      8
       We found each OFCCP region has current mega-projects, but not all District Offices
       within a region have mega-projects within their jurisdiction. If OFCCP is going to
       continue to use these mega-project reviews as a source for selecting individual
       contractors for review, they need to develop a uniform method for determining their
       selection.

       (e) Other Sources

       Several interviewees stated that public notices in local newspapers, union data, and visual
       observation of construction worksites are useful sources for scheduling construction
       reviews. For example, one Compliance Officer read in a local newspaper that a post
       office was being built within the jurisdiction of the District Office. The project involved
       federal funds, but the contracting agency had not provided notification of the contract
       award to OFCCP. We believe that there are several potential issues in attempting to
       schedule reviews through visual observation, including the lack of neutrality and the
       project may be nearing closure.

While all of these sources (the Dodge Report, award notices from contracting agencies, notices
of subcontractor awards, mega-projects, etc.) may provide good information on Federal
construction projects, field personnel lack guidance on how and when these sources should be
utilized. Our review of documentation and interview results revealed there is no consistency in
the agency’s approach to using these sources.

Accurate and Current Database Information on Federal Construction Contractors is
Difficult to Identify

OFCCP officials stress, and we agree, there are practical difficulties associated with OFCCP’s
role in ensuring that contracting officers and federal contractors comply with reporting mandates,
particularly at the State level. For example, many contractors covered by OFCCP regulations do
not contract directly with contracting agencies, but with municipalities or other local
governmental units that receive federal assistance funneled through State block grants. Often
times the federal agency awarding the grant to the State cannot identify the contractors that
ultimately receive federal funds without identifying a complicated chain of subsequent grants
from the State to the local governmental unit.

Our research did not find a centralized, government-wide database that identified all Federal and
federally assisted contractors. However, we discovered two agencies in DOL, the Occupational
Safety and Health Administration (OSHA) and the Veterans’ Employment and Training Service
(VETS) that have database initiatives to consolidate contractor information into centralized
databases. OSHA’s Construction Information System and Construction Inspection Scheduling
Website and VETS’ Federal Contract Award Information System are discussed below. We
recognize that an OFCCP system would not duplicate either of these systems, as each has unique
needs. However, there may be aspects of the systems that OFCCP can draw from to develop a
database system for construction contractors.




                                                9
         (a) OSHA’s Construction Information Selection System (CIS) and Construction
             Inspection Scheduling Website

               OSHA’s Construction Information Selection System (CIS) was designed to provide
               timely information on active construction projects, including: project location,

               contractor and project manager information, and the types and numbers of
               subcontractors involved in the projects.

               OSHA’s construction system relies on monthly data provided from F. W. Dodge to
               CRA on construction projects, which are expected to start in the next 60 days.
               Through the use of a sophisticated construction duration model, CRA adds to the
               Dodge data a time period when each project is active and maintains a file
               containing all active construction projects. The system is designed to get inspectors
               on site at neutrally selected projects when they are between 30 percent and 60
               percent complete.

               The current OSHA-CRA contract requires that CRA (and Dodge) provide
               numerous services, including but not limited to: a file of the universe of all
               construction projects estimated to be currently active; monthly lists of randomly
               selected construction projects meeting the unique criteria of the Area Offices. To
               achieve this, CRA orders an OSHA Construction Report for each project from
               Dodge (currently over 100 Federal and State Area Offices receive monthly targeting
               lists); statistical reports provided to the National Office on construction activity at
               the National, Regional, and Area Office levels, in aggregate form; an annual report
               addressing fatalities at construction sites for the previous year.

         (b) VETS’ Federal Contract Award Information System

               VETS has a grant with University of Colorado at Denver (UCD) to support their
               Federal Contract Award Information System (FCAIS). According to VETS,
               FCAIS is an efficient, interactive, user-friendly data information system that
               collects data from the Commerce Business Daily (CBD)4 and the Federal
               Procurement Data System (FPDS). All Federal procurement offices are required to
               announce proposed procurement actions and contract awards in the CBD if they are
               over $25,000 and are likely to result in the award of any subcontracts. The FPDS is
               a central repository for information on all Federal contracts awarded. The FPDS
               contains detailed information on contract actions over $25,000 and summary data
               on procurements of less than $25,000. UCD maintains a database of contracts
               awarded and other employer information from an estimated 60,000 awards
               processed annually. The database contains fields such as award issuing agency,




4
 Effective October 1, 2001, all federal agencies are required to post bid notices valued at $25,000 or more into a
new system called FedBizOpps. In 2002, procurements will no longer be required to be published in the CBD.


                                                         10
      contract number, contract dollar amount, contract starting and ending dates,
      contractors’ name and address, and place of performance. VETS has an Internet site
      for this system, which may be used by OFCCP with permission.

Recommendation:

We recommend that OFCCP:

1. Develop and disseminate guidance to District and Regional offices regarding the use of
   sources for selecting construction contractors for review. OFCCP should:

       (a)   Determine what database(s) can provide OFCCP with the most accurate and
             timely information needed for contractor selection.

       (b)   Develop a database system where contractors can report into the agency on
             actual subcontractors being used on construction contracts.

       (c) Inform executive branch department and agencies of their need to comply
           with the reporting requirements of 48 CFR Chapter 1, Part 22.804-2(c).
           OFCCP should develop a reporting mechanism for agencies, notify them in
           writing of the requirement, and where possible, meet with representatives of
           the agencies to stress the need for timely reporting. OFCCP should also
           determine if there is a need to enter into a Memorandum of Understanding
           with agencies in order to obtain the required information.

       (d) Request that contracting agencies include a notification to prime contractors
           regarding their affirmative action requirement of 41 CFR Chapter 60-
           4.2(d) when they award a contract, with a copy sent to OFCCP. The
           requirement states that the Contractors shall provide written notification to
           the Director of OFCCP within 10 working days of award of any construction
           subcontract in excess of $10,000 at any tier for construction.

       (e) Use its official directive system to promulgate the sources for construction
           compliance reviews. This will guarantee easy access to the information
           for operational purposes and ensure a written record of the sources to be
           used in selecting contractors.




                                       11
FINDING B—OFCCP Needs to Establish and Apply Neutral Selection Criteria

In addition to identifying the sources to be used for selecting construction contractors, OFCCP
needs to develop a uniform application of selection criteria. We found the selection criteria
provided in the 1990 directive on the “Construction Contractor Selection System” are not
uniformly applied.

Neutral Selection Criteria

The 1990 directive on construction selection procedures states that contractors should be selected
for review based on the following criteria, in sequential order: 1) length of time since prior
review, 2) size of contracts, 3) size of workforce, and 4) minority and female representation as
compared to their availability in the labor market5. The directive also states that those
contractors with a history of compliance review violations or a record of individual complaints
should also be considered for review.

OFCCP is not Uniformly Applying Neutral Selection Criteria

While many District Offices appropriately consider the date of a contractor’s prior review and
the dollar value of a contract as their primary selection criteria, many others do not. Further,
some District Offices do not schedule companies with less than 15 employees while other offices
use a minimum of 25 employees as one of their selection criterion. Finally, while OFCCP can
schedule a construction contractor for a compliance review if it has a contract of $10,000 or
greater, we identified that $25,000 is being used as one criterion for the selection of a contractor
for compliance reviews.

Recently, the Solicitor’s office advised OFCCP that in order to successfully defend against a
legal challenge made to their selection decision based on an administrative selection system, they
would have to show that: 1) the selection the system contained specific neutral criteria, and
2) the selection system was actually applied neutrally at the time the challenged selection
decision was made. The Solicitor also pointed out that although oral testimony of the officials
involved could prove that neutral criteria were used, courts have noted, “agencies are well
advised to make proper records and maintain them.”

Whatever sources the agency ultimately decides to use for selecting construction contractors
(i.e., the Dodge Report or a combination of sources), the agency must apply the specific neutral
criteria used at every step in developing the list of contractors derived from the source(s).




5
  We note that since the elimination of the CC-257 report, it is more difficult to obtain workforce information prior
to a compliance review. We also note that the Wage Hour Certified Payroll Report (WH-347) could be used by
OFCCP to obtain demographic information, if the report is modified to include race/sex information.


                                                          12
Recommendation:

We recommend that OFCCP:

2. Determine and specify in writing what neutral criteria will be applied at each step of the
   selection process. If there is Region-specific, or District-specific neutral criteria to be
   applied, it should also be specified in writing and maintained for review should the need
   arise. OFCCP should use its official directive system to clarify the neutral criteria to field
   personnel.




                                                 13
Finding C: Regional and District Offices Need to Consistently Document Their Rationale
           for Selection Decisions

We found that most District Offices maintain records on contractors selected for compliance
reviews, but do not maintain information on those contractors who were considered but not
selected for a compliance review.

The Solicitor’s office noted that incomplete historical information addressing the selection
system is a problem often encountered during litigation involving issues related to selection
systems.

The 1990 directive on construction scheduling states that the District and Regional Offices must
include in each case file information on the reasons for their selection of a contractor for each
compliance review. The District Offices’ lack of documentation showing they applied neutral
criteria could result in legal challenges from the contractor community. We believe it is
important that OFCCP document each step of its selection system, and maintain such
documentation for review.

It is essential that OFCCP document every step of its neutral system for selecting construction
contractors for compliance reviews, and make and maintain written records of the criteria applied
in every selection decision.

Recommendation:

We recommend that OFCCP:

3. Document the rationale for compliance review decisions and provide direction to field
   personnel in the directive on selection procedures. Consider development of an electronic
   system for field personnel to utilize when reporting on contractor selection/non-selection.

       (a) Create a “Construction Contractor Scheduling Documentation Form.” The form
           should be completed for all scheduled construction reviews and included in the case
           file. This will create an institutional record of the decision should questions arise
           concerning selection and scheduling procedures. At a minimum, the form should
           include: OFCCP identification information, contractor identification information,
           and reason(s) the contractor was scheduled for review.

       (b) Create a “Construction Contractor Non-Scheduling Documentation Form.” This
           form should be completed for all construction contractors that were considered but
           not scheduled for a compliance review. The form should be maintained in duplicate
           form in: (a) the case file of the selected contractor; and (b) a general District Office
           file either in hard copy or electronic format. At a minimum, the form should include:
           OFCCP identification information, contractor identification information, and
           reason(s) the contractor was not scheduled for review.



                                                14
                          OFCCP’s Response and OIG Conclusions

The purpose of our recommendations is to improve the efficiency and effectiveness of OFCCP’s
method for selecting construction contractors for compliance reviews.

OFCCP’s Response:

OFCCP “generally concurs with OIG’s main recommendations” and commits to the following
actions:

       “OFCCP will continue to evaluate whether there are databases that provide OFCCP
       with more comprehensive information on covered construction contractors than the
       information contained in the Dodge Report.

       “OFCCP will develop a database to allow contractors to submit required information
       about covered subcontractors to OFCCP. OFCCP will notify contractors of this
       database through various media outlets, including OFCCP’s web-site. OFCCP will
       describe this database in the reminder letter to contracting agencies and ask them to
       include such notification to contractors upon the initial award of the contract.

       “OFCCP also will develop a reporting process to provide contracting officers and grant
       applicants several easy methods for submitting required information about covered
       contracts to OFCCP. OFCCP will describe this reporting process in the reminder letter,
       and through various other media outlets, including OFCCP’s web-site.

       “OFCCP will promulgate formal guidance to its field offices on the process for selecting
       contractors for construction reviews, including the criteria for selection and the sources
       of information to be used. OFCCP will consider the use of appropriate forms and other
       reporting mechanisms to document the selection process.

OIG’s Conclusions

We consider the recommendations resolved. The recommendations will be closed upon receipt
of the following:

   •   A status report on: (a) OFCCP’s efforts to identify more comprehensive information on
       covered construction contractors; (b) OFCCP’s development of a database to allow
       contractors to submit required information about covered subcontractors to OFCCP; and.
       (c) notification to contractors of this database. Please provide information on these plans
       no later than July 31, 2002.

   •   A copy of: (a) OFCCP’s letter to executive agencies reminding them of reporting
       requirements, and (b) information on the agency’s development of a reporting process for
       contracting officers and grant applicants. Please provide a copy of the letter to executive
       agencies and information on the reporting process no later than May 31, 2002.



                                               15
•   A copy of the guidance for field offices on selecting contractors for construction reviews,
    including the criteria for selection, the sources of information to be used, and reporting
    mechanisms. Please provide the information no later than July 31, 2002.




                                            16
APPENDIX




   17
                                                                                    Appendix A


   Steps For Selection of Construction Contractors For Compliance Reviews
                                1990 Directive

Step 1   Establish a pool of available contractors using Construction Resource Analysis (CRA),
         F.W. Dodge individual reports.

Step 2   Consult the Active Project List before using other contract/contractor sources. The Active
         Projects List contains all public construction projects in the offices’ jurisdiction regardless
         of funding sources. If there are compliance evaluation candidates from other sources, add
         them to the pool already established through the CRA printouts. Call the owner of the
         project identified to determine if Federal funds or guarantees are involved.

Step 3   Determine whether work is being done primarily by the prime contractor or by its
         subcontractors. Using the F.W. Dodge report, contact the prime contractor to obtain
         names, addresses, and size of their major subcontractors. The subcontractors are to be
         considered candidates for compliance review in the same fashion as the prime contractor
         identified from the monthly Active Project List.

Step 4   Verify the existence of a Federal or federally assisted contract or subcontract of the
         requisite dollar amount.

Step 5   Determine date of last review. Do not review construction contractors who have been
         reviewed within the last two calendar years unless:
            a) complaint investigations indicate significant problems which warrant a compliance
               review;
            b) there is a possible violation of a Conciliation Agreement or Letter of Commitment;
            c) State Fair Employment Practices agencies or EEOC investigations reveal
               significant equal employment opportunity problems; or
            d) their work force has significantly increased (or is expected to significantly increase)
               during the 2-year period since the previous review.

Step 6   Consider contractors with the largest onsite construction workforce first. Prime
         contractors employing few workers should be considered a low priority regardless of the
         size of the contract. This data may, where possible, be obtained from the CC-257.
         Otherwise, they can be obtained from the contractor or subcontractor.

Step 7   Consider those contractors who have used fewer minorities or women in proportion to their
         availability in the total workforce before those who have a greater utilization.

Step 8   Give priority to contractors having a history of compliance review violations, individual
         complaints, or a reputation for noncompliance on the community or industry.




                                             18
                                                                                                                                      Appendix B



                            Typical OFCCP Scheduling Process




      National Office (NO)
    Disseminates FY Program                                                            DDs Review Goals Set By RD
 Operational Plan (POP) to Regional              RDs Disseminate POP to District         and Provide Guidance to
          Directors (RD)                                Directors (DD)                  Assistant District Directors
                                                                                                  (ADD)




                  ADDs, COs, or EOA                             CO or EOA Determines           Call Contractors to Obtain
                    Review Varied                                If Contractors Meet             Workforce Structure
                       Sources                                         Criteria**             Information or Confirmation
                                                                                                      of Contract




                                  Prime Contractors                                                              CO or EOA Make
Contracting Agencies
                                    Notification of                                                           Recommendation to DD
      Notices
                                   Subcontractors                                                           and/or ADD on Contractors
DOT, HUD, DOD, etc.                                                                                              to be Reviewed


  Hardcopy Dodge
                                      Mega Projects
Report From University
                                       Notifications
   of Tennessee
                                                                                                              DD and/or ADD(s)
                                                                                                             Select Contractors for
                                                                                                                    Review
Dodge Report OFCCP
     Intranet                     Visual Observation


                                                                                                              Schedule Review With
                                       Others                                                                      Companies
    Newspaper                  i.e. Community Groups,
                                     Unions etc.




                                                                                                **Criteria
                                                                                                Jurisdiction
                                                                                                Dollar Amount of Contract
                                                                                                Duration of the Contract
                                                                                                Workforce Size
                                                                                                Geographic Location




                                                                           19
                  Appendix C




AGENCY RESPONSE




      20
